4
-i

3(1

u

I

^ r:^\ n
ase No.

: ! j rv,n i';A t

L.

MV':; f;::! f:
1, 1 a i- ! 15
Li! L} \Ju iiL23

Li I-:-

IN THE SUPREME COURT OF
THE UNITED STATES
ANTHONY GAGE MEYERS,

Supreme
F;

AOS O' $
'£ Of

Petitioner
vs.
Cathy Jess,
Respondent.
ON PETITION FOR A WRIT OF
CERTIORARI TO UNITED STATES
COURT OF APPEALS FOR THE
SEVENTH CIRCUIT

PETITION
FOR WRIT OF CERTIORARI

Anthony Gage Meyers
Pro Se Petitioner
Inmate No. 520337
O.S.C.I
OSHKOSH WI, 54903
PHONE NUMBER N/A

Z

RECEIVED
AUG 1 2 2020
gBja&STcouffiSE

E

'

i

QUESTIONS PRESENTED
1. Was there sufficient evidence of utter “utter disregard for human life” to support
a first degree reckless homicide conviction?
2. Should additional jury instructions, specifically JI-810 have been requested to
point out Meyers had no duty to retreat in his own home?
3. Was trial counsel ineffective for failing to request second degree reckless
homicide as a lesser-included offense?
4. Was defense counsel ineffective for agreeing not to introduce the victim’s violent
past known to the defendant at the time of the homicide occurred?
5. Was trial counsel ineffective for failing to request additional and/or different jury
instructions for the self-defense, of which pointed out that Meyers had no legal duty
to retreat in his own home?
6. Was trial counsel ineffective for failing to argue, move, and/or in any other way
put forth the notion that there was a totality of the evidence showing that “utter
disregard” of the victim’s life would be an inappropriate finding in this case?

LIST OF PARTIES
All parties appear in the caption of the case on the cover page.

-3 -

4

s:
TABLE OF CONTENTS
QUESTIONS PRESENTED

-3 -

LIST OF PARTIES

-3 -

CASE OF AUTHORITIES CITED

-4-

OPINIONS

-5 -

5-

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

-5-

STATEMENT OF THE CASE

-6-

REASONS FOR GRANTING THE WRIT.

-7-

ARGUMENTS

-7-

Issue I. THERE WAS INSUFFICIENT EVIDENCE OF “UTTER DISREGARD
FOR HUMAN LIFE” TO SUPPORT A FIRST-DEGREE RECKLESS
-7HOMICIDE CONVICTION
Issue II. MEYER’S TRIAL COUNSEL WAS INEFFECTIVE FOR FAILING TO
-9REQUEST A DUTY TO RETREAT JURY INSTRUCTION AT TRIAL
Issue III. TRIAL COUNSEL WAS INEFFECTIVE FOR WAIVING HIS RIGHT
- 12TO ELICIT HIS KNOWLEDGE OF THE VICTIM’S VIOLENT PAST.
- 14-

CONCLUSION
CERTIFICATE OF COMPLIANCE

i

APPENDIX-A UNITED STATES COURT OF APPEALS FOR THE SEVENTH
CIRCUIT DECISION DENYING CERTIFICATE OF APPEALABILITY
DATED APRIL 23, 2020.................................................. ........................................ n
APPENDIX-B DECISION AND ORDER DENYING PETITION FOR WRIT OF
in
HABEAS CORPUS DATED MARCH 2019

i-

-2-

V:

CASE OF AUTHORITIES CITED

Burks v. United States, 437 U.S. 1, 18, 98 S. Ct. 2141, 57 L. Ed. 2d 1
8,9
(1978)
Coleman v. Johnson, 566 U.S.,132 S. Ct 2060, 182 L. Ed. 2d 978
(2012)
8,9
In re Winship, 397 U.S. 358, 364, 90 S. Ct. 1068. 25 L. Ed. 2d 368
8,9
(1970)
Jackson v. Virginia, 433 U.S. 307, 316, 99 S. Ct. 2781, 61 L. Ed. 2d 560
(1979)....8,9
Strickland v. Washington, 466 U.S. 668, 104 S. Ct. 2052, 80 L.Ed.2d 674, (1984).7, 12, 14
U.S. v. Cronic, 466 U.S. 628, 568 (1984)...7

o

-4-

t

IN THE SUPREME COURT OF THE
UNITED STATES PETITION FOR WRIT
OF CERTIORARI.
OPINIONS
For the cases from Federal Courts:
The opinion of the United States Court of Appeals
appears at Appendix A to the petition and is in
denial of Certificate of Appealability and is
published dated April 23, 2020.
For the cases from State Courts: N/A
JURISDICTION
For the cases from Federal Courts:
Decision and Order denying Petition for Writ of
Habeas Corpus dated March 27, 2019.
No Petition for Rehearing or no timely Petition for
Rehearing and no e extension of time to file the
Petition for Writ of Certiorari.
The jurisdiction of this Court is invoked under 28
U.S.C. 1254 (1).
For Cased from the State Court: N/A
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
Constitution of the United States Amendment 6:
In all criminal prosecutions, the accused shall. . .
have the assistance of counsel for his defense,
f

-5-

effective assistance of counsel at all stages of a
defendant’s case.
Constitution of the United States, Amendment 14:
No State shall . . . deprive any person of life,
liberty or property without due process of law.
STATEMENT OF THE CASE
This Petition seeks to clarify whether or not:
a) The evidence presented at trial was
sufficient to prove Meyers acted with “utter
disregard” for human life.
b) Trial counsel, John Keuch and Linda Myer
was truly ineffective for several reasons
including: failing to request Jl-Crim 810,
waiving Meyer’s right to elicit his knowledge
of the victim’s violent past, failing to mbve.
c) The use of additional and/or different jury
instructions regarding self-defense should
have been employed and requested by the
defense, especially the pronouncement there
is no duty to retreat.
d) The 7th Circuit Court of Appeals was
correct affirming the Eastern District
decision to deny Meyers Certificate of
Appealability.
In 2009, after the death of Shon Potschaider
(Shon), a jury in Winnebago County Circuit Court,
convicted Anthony Gage Meyers of first-degree
reckless homicide and misdemeanor bail jumping.
In 2016, Mr. Meyers filed a timely Petition for a
Writ of Habeas Corpus under 28 U.S.C. 2254, and
in 2019 Federal Court denied Meyers 2254
Petition and Certificate of Appealability. On April
23, 2020 the 7th Circuit Court of Appeals denied

-6-

Meyers Certificate of Appealability. Now this
Petition for Certiorari follows.
REASONS FOR GRANTING THE WRIT
“The purpose of the right to effective assistance of
counsel is to preserve a defendant’s right to a fair
trial; the right to effective assistance of counsel is
recognized not for its own sake but because of the
effect it has on the ability of the accused to receive
a fair trail.” U.S. v. Cronic, 466 U.S. 628, 568
(1984).
The petition should be granted for multiple
reasons. First, the 7th Circuit Court of Appeals of
the U.S. failed to apply Strickland v. Washington
standards to Meyers Certificate of Appealability.
The Federal Court also failed to apply
Strickland v. Washington and U.S. v. Cronic
Id. to Meyers 2254 Habeas Corpus Petition.
Second, there was insufficient evidence to prove
Meyers showed “utter-disregard” for the victim’s'
life in this case. Third, the use of additional and/or
different jury instructions regarding self-defense
should have been employed at trial and requested
by defense, especially the pronouncement that
Meyer’s had no duty to retreat in his own home.
Finally, Meyer’s trial counsel should have brought
into evidence the prior bad acts of the victim
known to Meyers the time the stabbing occurred,
and not waived Meyer’s right to do so.
ARGUMENTS

Issue I. THERE WAS INSUFFICIENT
EVIDENCE OF “UTTER DISREGARD FOR
HUMAN LIFE” TO SUPPORT A FIRSTHOMICIDE
RECKLESS
DEGREE
CONVICTION.

-7-

Trial Judge, Scott Woldt described the
incident between Shon and Meyers as follows:
“...In My opinion, it was not a fight because
a fight takes two people throwing fist
participating. In my - - in my estimation of
this, based upon the evidence that was
before this court, it was a beating. Shon was
beating the crap out of [Meyers], plain and
simple. That’s what happened. (See R. Exhibit
Q, Doc. 10-17, pg 40, lines 15-20)

Additionally, the victim in this case was not a
blameless or vulnerable victim, but a grown man
who attacked Meyers only moments before the
stabbing occurred; punching him 15-20 times in
two separate beatings and then putting him into a
chokehold. The victim was sober, 35 years old, and
had a 50-pound weight advantage over Meyers,
who at the time was 19 years old, weighed 125
pounds and was intoxicated with a B.A.C. of .182.
The above facts were never considered
“Collectively”, by any of the lower courts.
Under Jackson v. Virginia, 433 U.S. 307, 316, 99 S.
Ct. 2781, 61 L. Ed. 2d 560 (1979). federal courts
must look to the state law for “the substantive
elements of the criminal offense”,433 U.S., at 324,
n. 16, 99 S. Ct. 2781, 61 L. Ed. 2d 560, but the
minimum amount of evidence that the Due
Process Clause requires to prove the offense is
purely matter of federal law. In Coleman v.
Johnson, (566 U.S.,132 S. Ct 2060, 182 L. Ed. 2d
978 (2012)) the United States Supreme Court
applied Jackson in an opinion that considers the
facts collectively, without weighing each piece
individually.
Discussing in In re Winship, U.S. (1970) In re
Winship, 397 U.S. 358, 364, 90 S. Ct. 1068. 25 L. Ed.
2d 368 (1970). the Supreme Court in Jackson v.
Virginia, U.S. (1979) Id., declared that:

-8-

<3

“An essential of the due process guaranteed
by the Fourteenth Amendment [is] that no
person shall be made to suffer the onus of a
criminal conviction except upon sufficient ...
evidence necessary to convince a trier of fact
beyond a reasonable doubt of the existence of
every element of the offense.”
The Court must address claims of sufficiency of
the evidence in such a case because the Double
Jeopardy Clause of the Fifth Amendment
precludes retrial when the evidence is insufficient,
citing Burks v. United States, 437 U.S. 1, 18, 98 S.
Ct. 2141, 57 L. Ed. 2d 1 (1978).
Applying the standards set forth in: Jackson v.
Virginia, In re Winship, Burks v. United
States, and Coleman v. Johnson; Meyers must
be acquitted of first-degree reckless homicide. The
uncontested evidence presented at trial of Meyers
calling 911 to get and ambulance for the victim,
along with him staying on the scene until police
arrive, and then asking about the victim’s well­
being show some regard for human life
collectively.
Furthermore, every theory the State presented
during Meyers appeals for why he showed “no
regard for human life”, were theories never
presented to the jury at trial. This is because the
State only argued at trial that Meyers was guilty
of first-degree intentional homicide. For this
reason when the lower courts denied Meyer’s
appeals on the States arguments, all of them
relied upon made up theories never presented to
the jury when they denied Meyer appeals. Which
required the courts to guess what the jury would
have done if given the theories.
Issue II. MEYER’S TRIAL COUNSEL WAS
INEFFECTIVE FOR FAILING TO REQUEST
A DUTY TO RETREAT JURY INSTRUCTION
AT TRIAL.

-9-

>+

Meyer’s duty to retreat was a central focus of the
State’s arguments at trial. The State specifically
informed the jury how Meyers’ ability to retreat
affected his self-defense claim:
“This was not an act done in self-defense. This
was an act done after a fight had concluded that
was instigated by the defendant upon Shon
Potschaider as he was attempting to get ready to
go to work that morning; it was an act done that
took his life after the fight concluded and after the
defendant, in a rage, passed a door that led out to
the garage on the outside of the home.” Doc. 10-15
pg 128-129 lines 20-25 and 1-2

The State also referred to Meyer’s opportunity to
leave his own home several other times
throughout trial, including:
“...he passes an exit door in the dining room
that leads to the garage, that then leads to
the outside of the residence out the back and that’s important, and I’ll come back to
that in a minute....” Doc. 10-15 pg 124 lines
14-18
“He passes an exit door in the dining room
that leads to the garage and out the back of
the home...Doc. 10-15 pg 125 lines 15-20

“...he again passed that exit door that led out
to the garage in the back of the residence.”
Doc. 10-15 pg 129 lines 10-12
“...when Mr. Meyers goes past the door to
the garage that leads outside....” Doc. 10-15
pg 164 lines 21-22
“...again past this door again...” Doc. 10-15
pg 165 line 4

- 10-

■i

“...had to take all the steps of running past
the door, of going in the knife drawer,
. rummaging through the knife drawer,
grabbing the knife, coming back, passing the
same door...” Doc. 10-15 pg 166 lines 17-20
“...pass the same outer access door where he
could have left...” Doc. 10^15 pg 190 lines 2-3
(Emphasis added to all quotes)
The state led the jury to believe that Meyers
should have retreated. In Wisconsin, Meyers had
no duty to retreat in his own home. Shon was the
original aggressor, and hit Meyers approx. 15-20
times in two separate beatings, and put Meyers
into a chokehold moments before the stabbing
occurred (See R. Exhibit P, Doc. 10-16, pg 72, lines
16-23, and pg 74, lines 2-22). If given Wis. Jury
instruction 810 the jury may have believed that
because:
1) Meyers was beat in two separate beatings, and
put into a chokehold, he did not believe he could
have retreated with safety;
2) Meyers was intoxicated with a B.A.C. of .182,
he did not know he had the opportunity to retreat;
3) Meyers did not provoke the beatings; he also
did not have to exhaust all other reasonable
means to escape before resorting to deadly force.
For the above reasons, a duty to retreat
instruction would have benefited Meyer’s defense
at trial. The State made it a point for the jury to
consider the fact that Meyers could have left the
home. That was a question for the jury to answer,
NOT the State. Trial counsel should have
instructed the jury Meyers had no duty to retreat
in his own home. Trial counsel was ineffective for
failing to instruct the jury that although there
was a door Meyers could have retreated out of, he
had no duty to retreat in his own home.
'

-11 -

Trial counsel’s ineffectiveness prejudiced Meyer’s
self-defense claim at trial, because there is a
reasonable probability that if the jury knew
Meyers had no duty to retreat in his own home,
they may have acquitted him of all charges.
Meyer’s trial counsel was ineffective “contrary to
his right to effective assistance of counsel as
guaranteed by the Sixth Amendment, and made
applicable by the Fourteenth Amendment to the
U.S. Constitution. Meyers has met his AEDPA
burden of proving that the court of appeals
adjudication of this claim resulted in a decision
that was “contrary to” or an “unreasonable
application of’ Strickland. Meyers is entitled to
relief on this claim.
III.
TRIAL
COUNSEL
WAS
Issue
INEFFECTIVE FOR WAIVING HIS RIGHT
TO ELICIT HIS KNOWLEDGE OF THE
VICTIM’S VIOLENT PAST.
Meyer’s strategy of self-defense would have
benefited from the jury believing Meyers intended
to kill Potschaider. It was also required that the
jury believed so.
The jury in this case was instructed using
jury instructions for intentional-degrees of
homicide. The jury instructions stated in relevant
part:
The defendant is guilty of second degree
intentional homicide if the defendant caused the
death of Shon A. Potschaider with the intent to
kill and actually believed the amount of force used
was necessary to prevent imminent death or great
bodily harm to himself but the belief of the
amount of force was unreasonable.
The defendant is guilty of first-degree
intentional homicide if the defendant caused the
death of Shon A. Potschaider with the intent to
kill and did not actually believe the force used was

- 12-

necessary to prevent imminent death or great
bodily harm to himself.
The defendant is guilty of first-degree
reckless homicide if the defendant caused the
death of Shon A. Potschaider by criminally
negligent - - or criminally reckless conduct and
the circumstances of the conduct showed utter
disregard for human life. You will be asked to
consider the privilege of self-defense in deciding
whether the elements of first-degree reckless
homicide are present. (Doc 10-16:143 #’s 7-25,
Exhibit P)
For the jury to believe that Meyers acted
lawfully in self-defense, they had to believe he
intended to cause the death of Potschaider. Trial
counsel’s strategy made his performance deficient
because his decision removed a vital piece of
Meyer’s self-defense claim, That deficient
performance prejudiced Meyers because the jury,
having been properly instructed, of Meyer’s state
of mind at the time of the stabbing, may have
concluded Meyers was acting out of fear when he
stabbed Shon, and not out of a vindictive axe to
grind. The jury could have also easily believed
that Meyers was so afraid of a man who was an
ex-prisoner who bragged about fighting, and was
violent towards his mother and sister in the past,
that he needed a knife to defend himself.
Introducing McMorris-type evidence would not
have given any more risk to Meyer’s self-defense
claim at trial. The jury had to understand Meyer’s
state of mind when determining if the amount of
force was ‘reasonable’.
Additionally, trial counsel never discussed the
strategic decision to waive the right to bring
McMorris-type evidence, and that makes trial
counsel’s performance deficient. Meyers invites
this court to second-guess the wisdom of Trial
counsel’s choice to deprive Meyers of the option to
introduce McMorris-type evidence at trial. Meyers
would have wanted the jury to know his state of
-13-

mind at the time the stabbing occurred. Trial
counsel’s
non-consented
strategic
decision
foreclosed any opportunity for Meyers to explain
to the jury a vital piece of the threat perception
that Shon presented to him, and that is what
prejudiced Meyer’s defense at trial. Meyers is
asking this Court to grant a new trial because he
wanted the jury to understand his state of mind
during the time the stabbing occurred.

<■*

Meyers has met his AEDPA burden of proving
that the court of appeals adjudication of this claim
resulted in a decision that was “contrary to” or an
“unreasonable application of’ Strickland, and
the court’s decision was based on an unreasonable
determination of the facts in light of the evidence
presented. There is a reasonable probability the
jury would have acquitted Meyers if counsel had
elected to present the McMorris-type evidence at
trial.

*

CONCLUSION

Petitioner respectfully requests that this court grant this Petition for Writ of
Certiorari.

S*

Dated at O.S.C.I., in Oshkosh, WI, July 'h 1 . 2020,

RespectfullWSubmitted,
77

Anthony Gage Mevers
Pro se defendant
Inmate No. 520337

- 14-

s'*

APPENDIX-A UNITED STATES COURT OF
APPEALS FOR THE SEVENTH CIRCUIT
DECISION DENYING CERTIFICATE OF
APPEALABILITY DATED APRIL 23, 2020.

*
11

Case: 19-1810

Filed: 05/15/2020

Document: 00713613808

Pages: 1

(1 of 3)

V

Llntfeh jifates duurt of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
Submitted April 17, 2020
Decided April 23, 2020
Before
WILLIAM J. BAUER, Circuit Judge
AMY C. BARRETT, Circuit Judge

No. 19-1810
ANTHONY G. MEYERS,
Petitioner-Appellant,

Appeal from the United States District
Court for the Eastern District of Wisconsin.
No. 16-CV-249

v.
CATHY JESS,
Respondent-Appellee.

David E. Jones,
Magistrate Judge.
ORDER

Anthony Meyers has filed a notice of appeal from the denial of his petition under
28 U.S.C. § 2254 and an application for a certificate of appealability. We have reviewed
the final order of the district court and the record on appeal. We find no substantial
showing of the denial of a constitutional right. See 28 U.S.C. § 2253(c)(2).
Accordingly, Meyers's request for a certificate of appealability is DENIED.

Case 2:16-cv-00249-DEJ Filed 05/15/20 Page 1 of 3 Document 30

Case: 19-1810

Document: 00713613809

Filed: 05/15/2020

Pages: 2

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

NOTICE OF ISSUANCE OF MANDATE
May 15, 2020

To:

Gina M. Colletti
UNITED STATES DISTRICT COURT
Eastern District of Wisconsin
Milwaukee, WI53202-0000

ANTHONY G. MEYERS,
Petitioner - Appellant
No. 19-1810

v.

CATHY JESS,
Respondent - Appellee
..:__ _ _ .................... ..... r*
7' .
<A /.
- >
Originating Case Information:___________ _________________ _
______________ ,
District Court No: 2:16-cv-00249-DEJ
Eastern District of Wisconsin
Magistrate Judge David E. Jones_____________ _______________________ -_______________
Herewith is the mandate of this court in this appeal, along with the Bill of Costs, if any. A
certified copy of the opinion/order of the court and judgment, if any, and any direction as to
costs shall constitute the mandate.
RECORD ON APPEAL STATUS:

MPHIM

• No record to be returned

T'4 >2 "mm

II

NOTE TO COUNSEL:
If any physical and large documentary exhibits have been filed in the above-entitled cause, they are

*■.

Case 2:16-cv-00249-DEJ Filed 05/15/20 Page 2 of 3 Document 30

(2 of 3)

!

Case: 19-1810

Document: 00713613809

Filed: 05/15/2020

Pages: 2

\
to be withdrawn ten (10) days from the date of this notice. Exhibits not withdrawn during this period
will be disposed of.
Please acknowledge receipt of these documents on the enclosed copy of this notice.

Received above mandate and record, if any, from the Clerk, U.S. Court of Appeals for the
Seventh Circuit.
Date:

Received by:
05/15/2020

/s/ D. LaBrie

'form name: c7_Mandate(form ID: 135)

*

Case 2:16-cv-00249-DEJ Filed 05/15/20 Page 3 of 3 Document 30

(3 of 3)

